October 31, 2004


MEMORANDUM

FOR:           Director, USAID/Egypt, Kenneth C. Ellis

FROM:          Regional Inspector General/Cairo, David H. Pritchard /s/

SUBJECT:       Sustainability of USAID-Financed Utility Infrastructure Activities
               in Egypt (Report No. 6-263-05-001-S)

This memorandum transmits our final report on the subject survey. In finalizing
the report, we considered your comments on our draft report and have included
your response as Appendix II.

Although this report is not an audit report, it contains two suggestions for your
consideration.

I appreciate the cooperation and courtesy extended to our staff during the survey.
Table of
Contents   Background .......................................................................................................... 3

           Survey Objectives................................................................................................. 3

           Survey Results ..................................................................................................... 3

                   History and Status of USAID/Egypt’s Utility Infrastructure Projects .......... 3

                           Prior Conditions in Egypt ................................................................. 3

                           USAID’s Investments in the Utility Infrastructure Program .............. 5

                           Selected Results of USAID’s Investments in Utility
                           Infrastructure ...................................................................................... 7

                   Cost Recovery Levels of the Power, Telecommunications,
                   and Water and Wastewater Sectors for Operation and Maintenance........... 8

                   Status of Policy Sector Reform Efforts in the Power,
                   Telecommunications, and Water and Wastewater Sectors ......................... 11

                   Major On-Going Impediments to Sustainability
                   For USAID-Financed Infrastructure Projects............................................. 13

                   Options Available To USAID/Egypt ......................................................... 13

           Evaluation of Management Comments ............................................................... 14

           Appendix I-Scope and Methodology .................................................................. 15

           Appendix II-Management Comments................................................................. 18




                                                                                                                                     2
Background   According to USAID/Egypt’s financial records, USAID has invested $5.8 billion in
             utility infrastructure projects in Egypt since 1975. These projects focused
             predominately in the power, telecommunications, and water and wastewater sectors.

             USAID/Egypt’s applicable strategic objective is “Access to Sustainable Utility
             Service in Selected Areas Increased.” USAID/Egypt’s 2003 Annual Report also
             said that the “Mission’s program therefore emphasizes the sustainability of U.S.
             government and Government of Egypt infrastructure investments.”

             USAID/Egypt planned to close out its utility infrastructure program by
             September 30, 2006.


Survey       We conducted this survey to:
Objectives
             • Describe the history and status of USAID/Egypt utility infrastructure projects.
             • Analyze cost recovery levels of the power, telecommunications, and water and
               wastewater sectors.
             • Describe the status of policy sector reform efforts in the power,
               telecommunications, and water and wastewater sectors.
             • Report the major on-going impediments to sustainability for USAID-financed
               infrastructure projects.
             • Report options available to USAID/Egypt.

             Appendix I provides details on the survey’s scope and methodology.


Survey       History and Status of USAID/Egypt’s
Results      Utility Infrastructure Pro jects

             Prior Conditions in Egypt — A 1994 USAID evaluation1 and other USAID
             documents mentioned the following conditions of each utility sector prior to the
             start of USAID’s investments.

                     Power — According to the 1994 USAID evaluation, Egypt’s electric
             power sector in the 1970s and 1980s had significant problems including:
             insufficient capacity for new firms; frequent brown-outs and blackouts; poor




             1
              “Capital Projects: Egypt Case Study” A.I.D. Evaluation Technical Report
             No. 20, February 1994



                                                                                            3
electrical quality, such as interruptions and voltage spikes; and deliberate load
shedding. 2

        Telecommunications — According to the 1994 USAID evaluation,
Egypt’s telephone system in the mid to late 1970s was antiquated and extremely
congested, with a telephone line density of one telephone per 100 people. Repair
attempts were often futile because the equipment was so old that cables
disintegrated when touched. The country had not made any investments in
modernizing its network for over 10 years. There were long waiting lists to
obtain phone connections. Some international firms seeking an operations base in
the Middle East were reluctant to establish offices in Egypt since
telecommunications were so inadequate.

The 1994 USAID evaluation further noted that telephone reception was also very
poor. To make a local call required many dialing attempts, and sometimes the
dial tone could not be obtained for hours. Lines were frequently out of order, the
connection rate was estimated to be only 25 to 40 percent, and disconnections
amid conversations were common. At one company in Cairo, an average of only
six calls per hour could be completed during the workday on each of its lines; this
rate was the result of constant dialing and repeated attempts to obtain the desired
connection. A transportation study reported that 30 percent of the road traffic in
Cairo was due to inadequate telephone service. Because the telephone system
was so unreliable, Cairo businesses used thousands of couriers to deliver
messages.

        Water and Wastewater — According to the 1994 USAID evaluation, by
the mid-1970s Egypt’s water and wastewater systems were severely overloaded.
By 1970 Cairo’s sewerage system, designed for a population of two million,
broke down under the pressure of serving a population of six million. Cairo had
two small wastewater treatment plants and five pumping stations dating to 1915.
According to a 1978 USAID project paper, additions to the system had been made
without broad planning. The 1978 USAID project paper also said that the
wastewater treatment facilities on the east side of the Nile River were totally
ineffective and that the wastewater treatment facilities on the west side of the
river were also very limited in effectiveness. Consequently, raw sewage often
flooded neighborhood streets in more than 200 areas of Cairo. Cairo’s water
supply system was also overloaded. The amount of treated water was 25 percent
less than demand. In addition, the water transmission, distribution, and storage
systems were in need of major repairs.
2
  According to USAID/Egypt’s Chief of Power and Telecommunications, a brown
out occurs when a major portion of the electric power system loses service in an
unplanned manner. A black out occurs when the entire electric power system
fails. Load shedding is a deliberate decision by the utility to disconnect certain
portions of the system in anticipation of demand being greater than available
supply.



                                                                                 4
A 1981 USAID project paper amendment identified the following health-related
problems in Cairo.

•   46 percent of infant and child mortality was due to diarraheal diseases.
•   The incidence of cholera in Cairo was twice the national average.
•   One of the most onerous and hazardous physical events that occurred in
    unsewered homes was the overflowing of raw sewage from trenches into the
    confines of the homes or immediately in front of the home. Because women
    spent a large part of their daily lives within this area, they and their young
    children were continually exposed to the health hazards posed by the presence
    of raw sewage and suffered the indignities of seeing, smelling, and breathing
    the resulting foulness.

The Alexandria wastewater system was under similar pressure. In Alexandria,
raw sewage ponded in low- income residential streets and was discharged along its
Mediterranean Sea beaches.

USAID’s Investments in the Utility Infrastructure Program — According to
USAID/Egypt’s financial records, since 1975, the USAID utility infrastructure
program in Egypt has funded $5.8 billion in the areas of power,
telecommunications, and water and wastewater. The largest of these has been the
water and wastewater sector with $3.4 billion of investments. The second largest
has been in the power sector with $1.8 billion of investments. The third sector,
telecommunications, has received about $600 million of investments.

       Power — USAID has funded $1.8 billion in upgrades to the power grid,
thus supporting about 35 percent of the increase in total power capacity since the
mid-1970s, according to USAID/Egypt documents. USAID’s investments, as
summarized in Table 1, have been nation-wide including the Aswan High Dam,
Cairo, Alexandria, Middle Egypt, and the city of Ismailia along the Suez Canal.




                                                                                5
Table 1: List of USAID/Egypt’s Power Projects

     Number               Project Title              Years         Funding 3
    263-0001   Electric Power Distribution         1973-1980       $29,834,000
    263-0008   Gas Turbine Generators Talkha-      1976-1980       $67,299,000
               Helwan
    263-0009   Ismailia Thermal Power Plant        1976-1988      $249,576,000
    263-0023   National Energy Control Center      1976-1987       $42,296,000
    263-0030   Shoubra El Kheima Thermal Power     1979-1991      $261,503,000
               Plant
    263-0033   Urban Electric Power Distribution   1977-1991       $97,128,000
               Equipment
    263-0123   Energy Policy Planning              1982-1992       $20,856,000
    263-0140   Energy Conservation and             1987-1998      $140,975,000
               Environment
    263-0160   Aswan High Dam Power Station        1982-1995      $139,516,000
    263-0194   Alexandria Electrical Network       1989-1998       $49,488,000
               Modernization
    263-0196   Talkha Combined Cycle Plant         1982-1991     $64,674,000
    263-0215   Power Sector Support I              1989-2004    $460,656,000
    263-0224   Power Sector Support II             1994-2005    $172,300,000
                                                      Total = $1,796,101,000

        Telecommunications — According to USAID/Egypt’s financial records,
beginning in 1978, USAID has funded five telecommunications projects as
summarized in Table 2. According to USAID/Egypt documents, this has led to
the installation of more than 800,000 telephone lines or about 15 percent of all
new telephone lines, the institutional strengthening of Telecom Egypt, and the
improvement and expansion of telecommunications networks in Cairo,
Alexandria, and Port Said.

Table 2: List of USAID/Egypt’s Telecommunications Projects

     Number             Project Title                Years        Funding
    263-0054   Telecommunications I                1978-1983      $40,000,000
    263-0075   Telecommunications II               1979-1985      $80,000,000
    263-0117   Telecommunications III              1979-1989     $121,063,000
    263-0177   Telecommunications IV               1988-1996      $81,676,000
    263-0223   Telecommunications Sector Support   1993-2006     $281,900,000
                                                      Total =    $604,639,000



3
  For completed power, telecommunications, and water and wastewater projects
in Tables 1, 2, and 3, we used expended amounts. For on-going projects, we used
authorized amounts for the life of the projects.


                                                                              6
        Water and Wastewater — According to USAID/Egypt’s financial
records, since 1975, USAID/Egypt has funded $3.4 billion in water and
wastewater infrastructure and associated institutional strengthening programs.
According to a USAID/Egypt 2002/2003 status report, assistance initially targeted
the emergency provision of sewerage infrastructure to relieve the flooding of raw
sewage in Cairo and Alexandria, and the replacement and rehabilitation of
services in the war-damaged cities along the Suez Canal. In the early 1980s and
1990s, USAID programs focused on the needs of Cairo and Alexandria. Since the
mid-1990s, the program focus has shifted to smaller urban areas in the Delta,
South Sinai, and Middle and Upper Egypt. In addition, the program has focused
on institutional development. Table 3 summarizes these USAID projects.

Table 3: List of USAID/Egypt’s Water and Wastewater Projects

     Number               Project Title               Years         Funding
    263-0017   Water Use and Management             1976-1984       $12,995,000
    263-0038   Cairo Water I                        1977-1989       $97,265,000
    263-0048   Canal Cities Water and Sewerage      1978-1988      $165,332,000
    263-0089   Alexandria Sewerage I                1977-1984       $14,639,000
    263-0091   Cairo Sewerage I                     1978-1988      $128,275,000
    263-0100   Alexandria Wastewater System         1979-1997      $422,076,000
               Expansion I
    263-0161   Provincial Cities Development        1982-1991      $384,229,000
               (Middle Egypt)
    263-0173   Cairo Sewerage II                    1984-2005      $816,000,000
    263-0174   Canal Cities Water and Wastewater    1987-2000      $377,078,000
               II
    263-0193   Cairo Water II                       1988-1998      $144,840,000
    263-0236   Secondary Cities Development         1994-2005      $325,000,000
               (Upper Egypt and Delta region)
    263-0241   Alexandria Wastewater System         1997-2004      $203,000,000
               Expansion II
    263-0270   Egypt Utilities Management           1997-2005      $318,000,000
               (Middle Egypt and Alexandria)
                                                       Total = $3,408,729,000

Selected Results of USAID’s Investments in Utility Infrastructure — The
following sub-sections provide examples of results in the power,
telecommunications, and water and wastewater sectors.

      Power — According to a USAID/Egypt 2002/2003 status report and the
Government of Egypt 4 , from 1976 to 2002, the total installed capacity increased

4
 Government of Egypt Ministry of Electricity and Energy Egyptian Electricity
Holding Company 2001/2002 Annual Report



                                                                               7
from 3,789 megawatts to 16,648 megawatts. According to USAID/Egypt
documents, USAID’s investments supported about 35 percent of the increase in
total capacity since the mid-1970s.

        Telecommunications — Egypt’s telephone system saw large
improvements. For example, according to annual reports of Telecom Egypt, the
number of telephone lines increased from 510,000 to 10.3 million between 1981
and 2002. Subscriber waiting lists dropped from one million to 200,000 in the
two years from 2000 to 2002. Over the 20 year period from 1981 to 2001, the
telephone line density increased from 1.2 percent to 10.2 percent, the number of
international circuits increased from 160 to 10,573, and the number of countries
with automatic access to Egypt increased from 29 in 1981 to 234 in 2000.
According to USAID/Egypt documents, specific USAID investments have added
800,000 telephone lines. According to a USAID/Egypt 2002/2003 status report,
developing the telecommunications sector has been important to Egypt’s ability to
increase trade and investment.

       Water and Wastewater — The following examples illustrate results in
the water and wastewater sector.

According to USAID/Egypt documents for the Alexandria Wastewater Project,
USAID programs have provided primary treatment of two thirds of the city’s
wastewater. These project documents further note that indicators of public health,
such as infant mortality rates and water-borne diseases, had marked decreases. For
example, infant mortality rates decreased 53 percent from 1983 to 1993.
Water-borne disease rates for typhoid and hepatitis decreased 79 percent and 22
percent, respectively, for the period from 1987 to 1995. In addition to health
improvements, the project documents noted that the wastewater program largely
eliminated ponding in streets and discharges into the Mediterranean Sea.

According to the 1994 USAID evaluation, during a 10-year period from 1977 to
19875 , Egypt’s diarrhea-related death rate for infants dropped about 50 percent from
48 to 26 per 1,000 live births. During the same period, diarrhea-related deaths for
children ages 1 to 4 dropped two-thirds from 9 per 1,000 to 3 per 1,000. The 1994
USAID evaluation said that a number of international studies have demonstrated
that improvements in water supply and sanitation reduce rates of disease and
death.

Cost Recovery Levels of the Power, Telecommunications, and
Water and Wastewater Sectors for Operation and Maintenance

The percentage of operation and maintenance costs, excluding capital replacement
costs, covered by revenue varied among the three utility sectors. According to
USAID/Egypt’s analysis of its performance indicators for cost recovery by utility
5
 “Capital Projects: Egypt Case Study”. A.I.D. Evaluation Technical Report
No. 20, February 1994


                                                                                   8
sector, both power and telecommunications sectors reported nearly 100 percent or
more cost recovery for operation and maintenance costs—99 percent and 115
percent respectively—for the most recent year reported, 2003. In contrast, the
water and wastewater sector reported 90 percent cost recovery for operation and
maintenance in 2003. However, this was a significant improvement from the
1999 baseline figure of 61 percent.

Power — According to USAID/Egypt analysis, Egypt’s electric power sector will
continue to need expansion as both population and use increase. However, power
is a capital intensive industry. USAID/Egypt’s analysis, seen in Table 4, shows
that operation and maintenance cost recovery for the power sector has been stable
for the last four years and was 99 percent for the most recent year reported, 2003.
Operations and maintenance are being covered by revenue, leaving a gap in
collected revenues being able to cover or partially cover future expansion
requirements.

Table 4: Percentage of Operation and Maintenance Costs (Excluding Capital
Replacement) Covered by Revenue in the Power Sector According to
USAID/Egypt Analysis

     Year         Actual Percentage                  Target Percentage
     1999                       108%                                             ---
     2000                       107%                                          108%
     2001                       105%                                          109%
     2002                       103%                                          110%
     2003                        99%                                          95%*
     2004                          ---                                        97%*
     2005                          ---                                        99%*

Note: * indicates an adjusted goal figure due to the prospects of foreign exchange
related difficulties continuing in the future. Foreign exchange-related difficulties
arise when the exchange rate between the Egyptian pound and major foreign
currencies falls sharply.

Telecommunications — The telecommunications sector revenues have exceeded
operations and maintenance costs. However, as seen in Table 5, cost recovery has
recently eroded. According to USAID/Egypt analysis, one probable cause is an
expansion of services at a time of economic downturn. For example, the Egyptian
telephone company added close to one million telephone lines in 2002. The
considerable expansion in the number of telephone lines over the past decade has
meant that a larger portion of the customer base is now among those with lower
incomes—those most likely to be pinched financially in a faltering economy and
thus unable to pay their bills on time.




                                                                                  9
Table 5: Percentage of Operation and Maintenance Costs (Excluding Capital
Replacement) Covered by Revenue in the Telecommunications Sector According
to USAID/Egypt Analysis

     Year         Actual Percentage                  Target Percentage
     1999                       149%                                             ---
     2000                       138%                                          150%
     2001                       139%                                          152%
     2002                       130%                                          153%
     2003                       115%                                         120%*
     2004                          ---                                       125%*
     2005                          ---                                       130%*

Note: * indicates an adjusted goal figure due to the prospects of foreign exchange
related difficulties continuing in the future. Foreign exchange-related difficulties
arise when the exchange rate between the Egyptian pound and major foreign
currencies falls sharply.

Water and Wastewater — USAID and Government of Egypt officials said that
the most basic issue with the water and wastewater sector was tariff rates that were
too low and would require hard political decisions to raise them to economically
viable levels. Even as low as water rates were nationally, the water rates in Cairo
have been even lower.

In spite of this, according to USAID/Egypt analysis, some improvements in cost
recovery occurred over the last four years to diminish the necessity of Government
of Egypt subsidies. According to USAID/Egypt documents and interviews with
Mission officials, with USAID encouragement, there has been some movement on
the part of the Government of Egypt to address the issue of tariff reform. For
example, according to USAID/Egypt’s technical comments on a draft of this report,
the Government of Egypt has just enacted (September 2004) a major tariff inc rease
in Cairo. It is premature to determine results.

According to USAID/Egypt analysis as noted in Table 6, operation and
maintenance cost recovery for the water and wastewater sector has improved over
the last four years and was 90 percent for the most recent year reported, 2003.
According to Mission officials and documents, many Egyptian water and
wastewater utilities made strides in cost recovery by reducing costs, improving
billing and collection and, in some cases, increasing tariffs. However, this
performance indicator only measured the results from nine water and wastewater
utilities in which USAID projects were on-going or would take place during the
planning period. These projects covered many of the larger Egyptian cities and
regions (Alexa ndria, Fayoum, Minia, Beni Suef, Mansoura, Aswan, Luxor, and
South Sinai) except Cairo.




                                                                                 10
Table 6: Percentage of Operation and Maintenance Costs (Excluding Capital
Replacement) Covered by Collected Revenue in the Water and Wastewater Sector
According to USAID/Egypt Analysis

     Year          Actual Percentage                   Target Percentage
     1999                         61%                                             ---
     2000                         72%                                           62%
     2001                         73%                                           69%
     2002                         86%                                           79%
     2003                         90%                                          87%*
     2004                           ---                                        92%*
     2005                           ---                                        95%*

Note: * indicates an adjusted goal figure due to the prospects of foreign exchange
related difficulties continuing in the future. Foreign exchange-related difficulties
arise when the exchange rate between the Egyptian pound and major foreign
currencies falls sharply.

Status of Policy Sector Reform Efforts in the Power,
Telecommunications, and Water and Wastewater Sectors

In all three utility sectors, USAID/Egypt facilitated policy sector reform.

Power — According to USAID/Egypt, all legal and regulatory milestones for the
power sector in USAID/Egypt’s strategy have been achieved. USAID/Egypt
supported the reform of the electric power sector since 1992 through a number of
initiatives. According to USAID/Egypt, its investments in infrastructure were linked
to actual progress made to restructure the former Egyptian Electricity Agency into a
holding company6 , the Egyptian Electricity Holding Company, and affiliated
generation, distribution, and transmission companies. The holding company was
established in 1998, and the affiliated companies were separated in July 2001. In
addition, the Egyptian Electric Utility and Consumer Protection Regulatory Agency
was established by Presidential Decree in August 2000.                 According to
USAID/Egypt, the Mission promoted this restructuring and also provided technical
assistance. USAID/Egypt also implemented three financial management programs
that introduced budget forecasting, loan tracking, and cash management models to
the affiliated companies beginning in 1999 and finishing in 2002. USAID/Egypt’s
programs also strengthened the Egyptian Electric Utility and Consumer Protection
Regulatory Agency. Another USAID program, completed in 2003, established the
financial system whereby electricity was sold and purchased between the
transmission, distribution, and generation companies.

6
  According to a USAID/Egypt official, holding companies were formed in
compliance with Egyptian Law and were 100 percent owned by the Government
of Egypt. Holding companies consolidated and coordinated the activities of their
respective sectors and reported aggregated financial results.


                                                                                 11
Telecommunications — According to USAID/Egypt, all legal and regulatory
milestones for the telecommunications sector in USAID/Egypt’s strategy have been
achieved. According to USAID/Egypt, it has promoted policy reforms to enhance
the sustainability of the sector and USAID investments. In 1994, the Government
of Egypt agreed to a program for reforms such as market pricing, cost recovery,
and fiscal autonomy. Until 1998, all of Egypt’s telecommunications services
(including operation and regulation) were provided by one organization—Arab
Republic of Egypt National Telecommunications Organization. In 1998, by
Government of Egypt law, this organization was replaced by two independent
entities—(1) Telecom Egypt which provided telecommunications services and
was incorporated as a stock company and (2) the National Telecommunications
Regulatory Authority which was established as an independent regulatory body.

Water and Wastewater — The sector reform initiatives in water and wastewater
were more difficult for several reasons. First, due to the decentralized nature of
the delivery of the service, the sector had many more legal entities including
Government of Egypt Ministries, sub- ministry organizations including the
National Organization of Potable Water and Sanitary Drainage and the New
Urban Communities Authority, 7 public economic authorities, 4 economic
authorities in Cairo and Alexandria, public companies, and local water and
wastewater departments. Second, accountability was diffused. Third, as senior
USAID officials noted, the very nature of water and wastewater made this sector
difficult to be commercially viable for three reasons.

1. People generally have considered water as a free commodity—much more
   than telecommunications and power. Thus, tariff reform was generally more
   difficult than for the power and telecommunications sectors.
2. Power and telecommunications were either functionally working or not. In
   contrast, wastewater could be passed through a plant without adequate
   treatment and it would not be immediately obvious. Thus, people were more
   willing to pay for power and telecommunications service because the benefits
   were more directly obvious.
3. Due to health benefits resulting from water and wastewater projects, subsidies
   could be justified.

In spite of these roadblocks, according to USAID/Egypt, it has worked to
strengthen institutions and to promote sector reform including private sector
participation, cost recovery, and regulation.      For example, according to
USAID/Egypt’s technical comments on a draft of this report, with USAID
encouragement, two presidential Decrees were signed on April 27, 2004, that set up
a holding company for water and wastewater utilities and a single regulatory
authority that will carry out functions such as improving customer service and
setting economically-based tariffs. These reforms in the water sector follow a
parallel path with organizations already established in the power and
telecommunications sectors.



                                                                               12
Major On-Going Impediments to Sustainability
For USAID-Financed Infrastructure Projects

Major on-going impediments to sustainability for USAID- financed water and
wastewater projects exist for several reasons—the primary reason being
inadequate cost recovery according to USAID/Egypt officials. According to
USAID/Egypt’s technical comments on a draft of this report: this sector’s
operations and maintenance costs are only partially being recovered in revenues;
policy sector reform is in the early states; and regulatory as well as holding
company entities are not yet operational. This sector also has inherent difficulties
such as more legal entities, diffused accountability, perceptions of water as a free
commodity, less visibility of operational capability (phones and electrical power are
obviously either working or not working), and justification of subsidies due to health
benefits from water and wastewater projects.

USAID and Government of Egypt officials said that the most basic issue with the
water and waste-water sector is tariff rates that are too low and that difficult political
decisions will be required to raise them. Nevertheless, according to USAID/Egypt’s
technical comments on a draft of this report, the Government of Egypt has just
enacted (September 2004) a major tariff increase in Cairo. Although it is premature
to determine results, this change (if sustained) increases the prospects for
sustainability in this sector.

Options Available To USAID/Egypt

USAID/Egypt intends to close out active utility infrastructure activities by
September 30, 2006. Within this framework, we make the following suggestions.

USAID and Government of Egypt officials believe that major impediments to the
sustainability of USAID- financed projects continue in the water and wastewater
sector—specifically in insufficient cost recovery levels. The USAID policy
sector reform efforts are focused on developing mechanisms that will assist this
process. Consequently, we suggest that:

•   USAID/Egypt develop a documented exit strategy that specifically addresses
    on-going impediments to the sustainability of its infrastructure investments in
    the water and wastewater sector.

Both Automated Directives System (ADS) 203.3.11 (Strategic Objective Close
Out Reports) and USAID/Egypt Mission Order No. 202-4 (Close Out of Strategic
Objectives, Projects and Programs) require close-out reports of strategic
objectives. The ADS lists a number of required items to be included in each
close-out report including costs, significant changes, lessons learned, summary of
performance indicators, list of evaluation and study reports, prospects for long-
term sustainability, and the summary of overall impact.




                                                                                       13
                During the course of this review, we noted a distinct gap in collected and
                organized information that addresses the impacts and outputs of USAID/Egypt’s
                utility infrastructure projects. Documentary evidence on project impacts (and to
                less extent outputs) is scanty and is often based on anecdotal rather than analytical
                evidence. Given the size, duration, and importance of this USAID/Egypt strategic
                objective, we suggest that:

                •   USAID/Egypt prepares an evaluation that (to the extent possible, given age
                    and the availability of records) thoroughly documents the impacts and outputs
                    of USAID’s infrastructure investments in accordance with requirements of
                    Automated Directives System 203.3.11 and Mission Order 202-4.


Evaluation of   USAID/Egypt fully agreed with both suggestions and has developed actions plans
Management      to implement each suggestion.
Comments
                In regard to the first suggestion, the Mission noted that it is already implementing
                a set of complementary activities that focus on sustainability. According to the
                Mission, these activities focus primarily on:

                (1) improving the management of utilities through training and the establishment
                    of management and financial systems;
                (2) improving the commercial orientation of utilities;
                (3) supporting regulatory agencies to carry out functions such as improving
                    customer service, licensing and rationalizing tariffs;
                (4) encouraging private sector participation through support for outsourcing of
                    key functions to private contractors; and
                (5) supporting private sector financing of infrastructure.

                According to USAID/Egypt, the basic elements of an exit strategy have been
                planned and are being implemented. The need is to incorporate all the activities
                into one document and to clearly explain how they will combine to enhance the
                sustainability of USAID’s investments after the close-out of the infrastructure
                program. USAID/Egypt plans to immediately commence drafting a concise exit
                strategy, utilizing USAID staff and, as needed, contractor inputs.

                In regard to the second suggestion, the Mission plans to commence the evaluation
                in January 2006. USAID/Egypt noted that guidance is provided in ADS
                203.3.6.1, When Is an Evaluation Appropriate? This says that the Agency
                recommends that strategic objective teams conduct at least one evaluation aimed
                at assessing results achievement and lessons learned during the life of each
                strategic objective. According to the Mission, the Office of Inspector General’s
                suggestion comes at an opportune time.




                                                                                                  14
                                                                                         Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Cairo conducted this survey of the sustainability
              of USAID- financed utility infrastructure activities in Egypt. Our survey was not
              an audit and covered the history of USAID- financed utility infrastructure
              investments—power, telecommunications, and water and wastewater—from 1975
              to 2004. According to USAID/Egypt’s financial records, the USAID utility
              infrastructure program in Egypt has funded $5.8 billion in the areas of power,
              telecommunications, and water and wastewater.

              We reviewed prior reports of the Office of Inspector General to identify conditions
              that are relevant to the current status of sustainability. In August 1994, the Office
              of Inspector General issued a comprehensive audit report reviewing the operation
              and maintenance of nine water and wastewater projects. The audit covered $1.6
              billion in project funding and entailed site visits to 41 facilities. Subsequent ly, the
              Office of Inspector General issued relevant audit reports in 1995, 1997, and 1999.
              The 1995 audit report relied on the work of the audit completed in 1994. The
              1997 audit report reviewed results reporting of the water and wastewater area.
              The 1999 audit report looked at the accuracy of reported results for two
              performance indicators in the power and telecommunications areas.

              This assignment was part of the Office of Inspector General fiscal year 2003 audit
              plan and was originally scheduled to be an audit with the following audit
              objective: “Has USAID/Egypt ensured the sustainability of USAID funds invested
              in infrastructure?” We changed this assignment to a survey because of (1) the lack
              of consistently defined criteria, (2) the scale of the program both in funding and
              timeframes, and (3) the necessity of reviewing older projects.

              Our survey originally included an objective to review maintenance records at
              selected utility infrastructure facilities. As a result, we visited 22 power,
              telecommunications, and water and wastewater sites in Egypt. Although we were
              able to note that most sites had documented maintenance systems, the depth of
              our survey was not sufficient to reliably conclude on the adequacy of these
              systems to ensure the continued and sustainable operational effectiveness of each
              facility.

              We conducted this survey at USAID/Egypt in Cairo, Egypt. Preliminary survey
              work was conducted from October 7, 2002, to February 2003. The fieldwork was
              resumed from October 15, 2003, through March 17, 2004.

              Methodology

              During this survey, we interviewed USAID, local government utility, and contractor
              officials; and reviewed related documentation covering background, organization,



                                                                                                   15
historical funding, project information, and management. We did not independently
validate information.

For our survey objective to describe the history and status of USAID/Egypt utility
infrastructure projects, we reviewed numerous historical USAID documents and
reviewed USAID/Egypt’s financial records.

For our survey objective to analyze cost recovery levels of the power,
telecommunications, water and wastewater sectors, we reviewed USAID/Egypt’s
analyses of its performance indicators and interviewed USAID and local
government utility officials.

For our survey objective to describe the status of policy sector reform efforts in the
power, telecommunications, and water and wastewater sectors, we reviewed
Mission documents describing its sector reform efforts and interviewed Mission
officials.

For our survey objective to report the major on-going impediments to sustainability
for USAID- financed infrastructure projects, we synthesized the views of USAID
and Government of Egypt officials through interviews and a review of USAID
documents.

For our survey objective to report options available to USAID/Egypt, we
identified actionable items that the Mission can implement to facilitate the
Mission’s planned exit from sustainable infrastructure activities after about 30
years.

USAID/Egypt has been managing its infrastructure investments without a
formalized definition of sustainability.        Given that USAID/Egypt’s major
investments in utility infrastructure are nearing their end, it is too late to assert a
definition to guide project management. This lack of a working definition in turn
did not provide us sufficient criteria for measuring progress towards sustainability.
For this review, we did not presume to define sustainability. We also did not cover a
number of other elements that USAID and contractor staff also noted as being
important. For example, other elements include the following.

•   availability and procurement of spare parts
•   potentially excessive utility staffing levels
•   utility staff training
•   projected gaps for future capital requirements—in particular for water and
    wastewater projects
•   sustainability of Government of Egypt subsidies for the utility sectors
•   ability of utilities to access private financing such as from capital markets
•   political will of the Government of Egypt to raise tariffs—particularly in the
    water and wastewater sector



                                                                                    16
•   economic environment in the utility infrastructure sectors and whether this
    will attract private investment
•   affordability and ability to shift revenues from the Government of Egypt to
    consumers




                                                                            17
                                                                                Appendix II


Management
Comments

MEMORANDUM


TO:          RIG/Cairo, David H. Pritchard

FROM:        D/DIR, Mary C. Ott /s/

SUBJECT: Report on Sustainability USAID-Financed Utility Infrastructure Activities
         in Egypt – Draft Report

Following is the Mission’s response to the OIG draft report and its two suggestions made to
Mission management.

Suggestion No. 1:

USAID/Egypt should develop a documented exit strategy that specifically addresses
on-going impediments to the sustainability of its infrastructure investments in the water
and wastewater sector.

USAID/Egypt Response:

The Mission fully agrees with the RIG suggestion to develop a documented exit strategy
that supports sustainability of USAID’s successful infrastructure program. While there is
not a formal exit strategy document for the infrastructure program, the strategic plan for
2000-2009 emphasized that SO18 should implement a number of activities to provide for
a “… logical graduation strategy for a mature program … protecting USAID’s massive
capital investments to date.” Consequently, a set of complementary activities that focus
on sustainability, in support of the strategy, are currently being implemented. These
activities focus primarily on: (1) improving the management of utilities through training
in management/leadership, administration, and operations as well as the establishment of
management and financial systems; (2) improving the commercial orientation of utilities
through support for restructuring of utilities into holding and affiliate



                                                                                         18
companies that have improved management and financing autonomy, enhanced salary
and employee incentive structures, and the ability to retain revenue surpluses for the
improvement of operations; (3) supporting regulatory agencies to carry out functions
such as improving customer service, licensing and rationalizing tariffs; (4) encouraging
private sector participation through support for outsourcing of key functions to private
contractors – utilizing assistance on feasibility studies and transaction support; and (5)
support for private sector financing of infrastructure through the establishment of a DCA
financing facility.

A brief example may be useful to illustrate how the USAID has been assisting with the
critical issue of sustainability. Within the limitations of funding and the remaining time
of SO18, we provided assistance that analyzed issues and assisted the GOE in drafting a
presidential decree which established a water sector regulatory agency. Sustainability of
utility service in Egypt can only be assured if the GOE makes hard decisions such as
raising water tariffs and, in the past, this has been extremely difficult for a number of
reasons including the lack of proper analysis. The regulatory agency will provide a
structure to systematically analyze issues such as the cost of service, customer service
standards and their ability to pay.

In sum, the point of these activities is to improve the management and operational
capability of utilities as a “leave behind” when the USAID program ends, provide a better
regulatory environment for utilities, assist in establishing a commercial orientation
among utilities and to replace USAID resources with those of banks and private sector
service delivery enterprises. Thus, we believe the basic elements of an exit strategy,
within the resource limitations of USAID, have been planned for and are currently being
implemented. The need articulated by RIG is to incorporate all the activities into one
document and to clearly explain how they will combine to enhance the sustainability of
USAID’s massive investments after the close-out of the infrastructure program.

With regard to new interventions that promote sustainability, potential options are limited
due to decreasing staffing and funding for Egypt. However, the SO18 Strategy states,
“As the Infrastructure program ends in FY2006, management of a few activities will pass
to two other programs. This hand-over will include the transfer of management
responsibilities as follows: (i) shifting small-scale construction activities to the
Democracy/Governance SO in support of its local government and citizen participation
efforts, and (ii) passing the management of bank financing under the Development Credit
Authority, private sector participation and support for the establishment of a regulatory
agency in the water sector to the Economic Growth program.” In particular, the Mission
has already agreed to consider continued support for the development of an operational



                                                                                         19
water sector regulatory agency and holding company, but only if significant sector reform
implementation progress is made against meaningful milestones.

Our plan is to immediately commence drafting a concise exit strategy, utilizing USAID
staff and, as needed, inputs from our contractors. This task should not be onerous as
most of the work that is possible to implement within staffing and funding constraints is
already ongoing – SO18 is not scheduled to get more funding. If additional interventions
to ensure sustainability of USAID’s massive infrastructure investments are deemed
necessary, it appears inevitable that additional funding and time be provided. However,
potential high development pay offs could probably be achieved with limited technical
assistance to further develop an operational water regulatory agency (current assistance is
limited to the development of legislation to establish the entities to provide initial, start-
up support). Additional productive assistance could entail management/leadership
training and management systems development within holding companies that operate
the power, telecommunications and water/wastewater utilities.

In view of the Mission’s ongoing actions in implementing the graduation strategy and
agreement to write a formal exit strategy, we believe that the first suggestion in the RIG
report can be addressed shortly. This suggestion is fully accepted by the Mission and it
will be completed upon acceptance by Mission management of the formal exit strategy
document.



Suggestion No. 2:
USAID/Egypt prepare an evaluation that (to the extent possible, given age and the
availability of records) thoroughly documents the impacts and outputs of USAID’s
infrastructure investments in accordance with requirements of both ADS 203.3.11 and
Mission Order 202-4.

USAID/Egypt Response to the second Suggestion

The Mission fully agrees with the RIG suggestion to develop a comprehensive evaluation
of impact and outputs. The tremendous impact of this incredibly successful infrastructure
program, as well as valuable lessons learned, should be documented and disseminated
broadly. Further, preliminary examination indicates that a full evaluation of the $5.0
billion invested to improve Egypt’s infrastructure could greatly improve the public
perception of the USAID program. While SO18 implements a comprehensive
performance management system, this provides a picture of implementation progress


                                                                                            20
against expected, targeted milestones. It does not provide an in-depth assessment of a
number of important development issues. Regarding the Infrastructure Program, these
include issues of sustainability, cost-effectiveness and lessons learned that might guide
other Missions or development partners in the design and implementation of future
programs. Additional guidance is provided in ADS 203.3.6.1, When Is an Evaluation
Appropriate? This states “The Agency recommends that SO Teams conduct at least one
evaluation aimed at assessing results achievement and lessons learned during the life of
each SO.” The RIG suggestion comes at an opportune time to respond to the ADS.

In this context, the Mission fully agrees with the RIG suggestion to prepare an evaluation
that documents the outputs and impacts of USAID’s infrastructure program which is
scheduled to be closed out on September 30, 2006. In order to complete this large,
complex task on time, the Mission proposes to commence the evaluation in January 2006,
utilizing PD&S funding to hire a contract evaluation team.

As noted in the RIG report, ADS 202.3.11 and Mission Order 202-4 provide guidance to
program managers on the close-out of SOs, projects and contracts, which is relevant to
the Infrastructure Program. Some of the topics within this guidance, such as the close-out
of contracts and certain financial information, relate to actions other than program
impact. This information will be included in a separate SO close-out report, in
accordance with Mission and ADS policy, to supplement the evaluation suggested by
RIG.

SO 18 intends to coordinate the development of the statement of work for the evaluation
with RIG, to ensure that all issues noted in the RIG report are addressed. In view of the
Mission’s plan to carry out the evaluation and close-out activities that comply with ADS
202.3.11 and Mission Order 202-4, we believe that actions have been identified that will,
at the appropriate time, fully address the second suggestion in the RIG report.

SO18 also intends to transmit separately to RIG a number of technical and editorial
comments that do not affect the RIG suggestions or Mission Responses. These minor
issues have already been informally discussed between SO18 and RIG and need not be
included herein.




                                                                                        21
